                                                                 ADVISORY




    RECOVERY OVERSIGHT ADVISORY

    Monitoring of Limitations on Subcontracting Clause on 8(a)
    Contracts




Report No.: ROO-ROA-MOA-1021-2010                            October 2010
                       OFFICE OF
                       INSPECTOR GENERAL
                       U S.DEPARTMENT OF THE INTERIOR


                                                                                         CT 1 3 20 10
    To: 	              Chris Henderson
                       Senior Advisor to the Secretary for Economic Recovery and Stimulus

    From:
                             .r~   e(L
                         oDertX Knox
                       'Assistant Inspector General for Recovery Oversight

    Subject: 	         Recovery Oversight Advisory - Monitoring of Limitations on Subcontracting
                       Clause on 8(a) Contracts (ROO-ROA-MOA-I021-2010)

         This advisory, regarding compliance with the Federal Acquisition Regulation Limitations
on Subcontracting clause by disadvantaged business (DB) 8(a) contractors, is part of our ongoing
efforts to oversee and ensure the accountability of funding appropriated to the U.S. Department
of the Interior (001) in the American Recovery and Reinvestment Act of2009 (Recovery Act).
We determined that 1) an 8(a) prime contractor did not provide the 15 percent labor required for
general construction contracts under the Federal Acquisition Regulation (FAR), 1 2) 001 , in
general, does not have a robust system to monitor compliance with the clause, and 3) 001
bureaus do not consistently conduct training on this issue.

        Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions 001 will implement to meet our recommendations, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation.

      We will post this advisory on our Web site (www.doioig.gov/recovery/) and
Recovery.gov. Information in this advisory may also be included in our semiannual reports to
Congress. Please contact me if you have any questions.

Background

        When contracting with disadvantaged businesses under the 8(a) program for general
construction, the Federal Acquisition Regulation (FAR) requires "The concern will perform at
least 15 percent of the cost of the contract, not including the cost of materials, with its own
employees (FAR 52.219-14, Limitations on Subcontracting clause)."

      The Small Business Administration (SBA) Office of Inspector General issued a report on
March 16, 2006, concerning compliance with 8(a) regulations? The report noted that neither
SBA nor procuring agencies ensured that 8(a) companies complied with applicable regulations
when completing 8(a) contracts.3 Further, while participation agreements state that SBA

IFAR 52 .21 9-14(b)(3). 

2Audit of Monitoring Compliance with 8(a) Business Development Regul at ions during 8(a) Busi ness Development Contract 

Performance, March 16, 2006, Audit Report No. 6-15 (Audit). 

3   Audit, page 3. 



                                        Recovery Oversight Office I Washington, DC
delegates contract execution to the procuring agencies, it does not specifically state that the
procuring agencies are responsible for enforcing the 8(a) disadvantaged business regulations,
allowing for possible misinterpretation of SBA’s meaning. The report recommended revising the
partnership agreements4 so that procuring agencies are specifically required to monitor the 8(a)
disadvantaged business companies’ compliance with specified contract and Federal Acquisition
Regulation requirements and any 8(a) disadvantaged business regulations.5 SBA officials
indicated that they had not yet developed formal guidance concerning the evaluation of
subcontract performance under 8(a) contracts.

        In 2007 and 2009, SBA executed partnership agreements with DOI covering fiscal years
2008 through 2010. The 2009 agreement requires DOI to conduct and document an assessment
of the participant’s ability to comply with the subcontracting limitations at the time of contract
award. It states that DOI shall also “retain responsibility for compliance with the limitations on
subcontracting requirement and all applicable provisions of FAR § 52.219-14 and any [sic] the
DOI regulations.” It continues by stating that DOI “shall ensure that contracting officers and
other warranted officials and their equivalents obtain training on their obligations under this
[partnership agreement] and the subcontracting limitations.”

Findings

        On August 17, 2009, the National Park Service (NPS) entered a $15,720 contract to
replace the roof of the administration building at Antietam National Battlefield (Antietam). The
contract was a fixed-price, simplified acquisition to an 8(a) concern. The contract included the
Limitations on Subcontracting clause, and the contractor also submitted certified payrolls, as
required. The project was completed in mid-October 2009 and no problems were reported. An
analysis of the certified payrolls and subsequent conversations revealed that the prime contractor
did not provide 15 percent of the labor cost as required by the Federal Acquisition Regulation.

        We reviewed the contractor’s detailed cost breakdown and proposal which indicated a
supervisor and project manager would be assigned to the work. When asked, the contractor
stated that he “was personally overseeing this project and was visiting the site daily between this
project in question and a nearby project, as it was small and of limited duration project (3 [to] 4
days).” A review of the contractor’s cost ledger did not reflect supervisory time spent on the job.
Further, the contractor provided no other record of hours spent on the project. The contracting
officer had no mechanism for evaluating whether or not the contractor provided the required 15
percent of labor costs.

        The same contractor is also performing work for NPS Harpers Ferry Center under two
contracts, totaling $2,228,089. We contacted the contracting official overseeing these contracts
to determine how she planned to monitor the Limitations on Subcontracting clause. She was
unsure how to monitor the requirement, had no knowledge of any Departmental guidance in this
regard, and had received no cost data because the contracts were firm fixed-price. She was
unclear who was responsible for monitoring and enforcing the Limitations on Subcontracting

4
  Partnership Agreements are memorandums of understanding between SBA and the procuring agencies that indicate the 

responsibility of each party in regard to the procurement. 

5
  Audit, page 6.


                                                                                                                       2
clause. She informally monitored the clause by performing visual inspections because her office
was close to the job site.

        As a result of this initial review, we conducted a survey of contracting officials to
determine compliance with the SBA partnership agreements. We interviewed 15 contracting
officials responsible for 18 contracts representing $101,606,040 or 62 percent of 8(a) contracts
ongoing as of August 31, 2010. We focused on how these officials monitor the Limitations on
Subcontracting clause. We interviewed at least one contracting official from the five bureaus that
obligated Recovery Act funds on 8(a) contracts, focusing on the high-dollar contracts.6

       Based on our survey, we found that a U.S. Geological Survey (USGS) contract did not
include the Limitations on Subcontracting clause. When informed, USGS corrected this
oversight with a modification to the contract dated August 31, 2010.

         Nine of the 15, or 60 percent of the contracting officials, indicated that they never
received training concerning their responsibilities under SBA partnership agreements. Many of
the respondents, however, indicated familiarity with these requirements. An NPS official stated
that training was conducted in September 2009, and that the Small and Disadvantaged Business
Utilization Specialist conducted informal briefings with all contracting officers.

       Two of the 15, or 13 percent of the contracting officials, indicated they were not
monitoring compliance with the Limitations on Subcontracting clause. Of those who did monitor
compliance, methodologies included a review of proposed costs on delivery orders, visual
observation and reviews of certified payrolls, or a review of a formal report based on total costs
and submitted by contractors as part of invoices.7

        There are problems with each of these methods. First, proposed costs do not always
reflect actual costs and would, therefore, yield an inaccurate result as demonstrated by Antietam.
Second, certified payrolls do not reflect supervisory time and, as a result, may skew the results of
prime contractor participation. Third, the Federal Acquisition Regulation states that compliance
with the Limitations on Subcontracting clause is based on the cost of the contract, not including
materials. Thus, a total cost approach could lead to misrepresentations and errors, particularly for
contracts with large material costs. Finally, bureaus using different processes for evaluating
contractor performance create confusion, which could lead to inconsistent evaluation of
contracts.

Recommendations

         We recommend that DOI:

              1.	 Draft policy changes to ensure that contracting officials conduct and document an
                  assessment of the contractor’s ability to comply with the Limitations on
                  Subcontracting clause in all 8(a) contracts;

6
  BIA did not award any 8(a) contracts.

7
 The formal report was developed by the Denver Service Center and did not contain a DOI form number. The DOI Web site lists 

no form for evaluating contractor performance.


                                                                                                                           3
           2.	 Develop and require use of a formal tool for monitoring 8(a) performance
               requirements consistently across all bureaus; and

           3.	 Deliver annual training to all contracting officials and contracting officer
               representatives concerning their responsibilities under partnership agreements
               with SBA.

cc: 	   Deputy Secretary, Department of the Interior
        Assistant Secretary – Policy, Management, and Budget
        Acting Director, Office of Financial Management
        Director, Office of Acquisition and Property Management
        Departmental GAO/ OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Director, Office of Small and Disadvantaged Business Utilization




                                                                                                4
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in 

            government concern everyone: Office

           of Inspector General staff, Departmental

            employees, and the general public. We 

               actively solicit allegations of any

           inefficient and wasteful practices, fraud, 

                and mismanagement related to 

            Departmental or Insular Area programs 

                and operations. You can report

               allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                     800-424-5081
                    Washington Metro Area                 703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
